   U.S. ELECTION ASSISTANCE COMMISSION 

        OFFICE OF INSPECTOR GENERAL





                     FINAL EVALUATION REPORT:
   United States Election Assistance Commission
                   INTERNET USAGE




NO. I-EV-EAC-02-08
FEBRUARY 2009
                          U.S. ELECTION ASSISTANCE COMMISSION
                                   OFFICE OF INSPECTOR GENERAL
                                 1225 New York Ave. NW - Suite 1100
                                       Washington, DC 20005




                                                                           February 17, 2009


Memorandum

To:         Gineen B. Beach
            Chair, U.S. Election Assistance Commission

From:	      Curtis W. Crider
            Inspector General

Subject:    Final Evaluation Report – United States Election Assistance Commission Internet
            Usage (Assignment No. I-EV-EAC-02-08)

        We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to conduct the subject evaluation. The objective of the
evaluation was to determine whether the U.S. Election Assistance Commission had implemented
effective controls to ensure compliance with internet usage policies. The review covered Internet
activity from August 24, 2008 through September 6, 2008 and focused on access to sexually
explicit, gambling, gaming, and auction sites. The evaluation found that the EAC had effective
controls to prevent the access to sexually explicit, gambling, gaming, and auction sites. The
evaluation was performed in accordance with the January 2005, Quality Standards for
Inspections, issued by the President’s Council on Integrity and Efficiency. A response to this
report is not required.

         If you have any questions regarding this report, please call me at (202) 566-3125.


Cc: Commissioners Rodriguez, Hillman, Davidson
    Executive Director
    Chief Operating Officer
    Director of Administration
UNITED STATES ELECTION ASSISTANCE COMMISSION


    INTERNET USAGE EVALUATION REPORT


             November 17, 2008
Mr. Curtis Crider
Office of the Inspector General
U.S. Election Assistance Commission
1225 New York Avenue NW, Suite 1100
Washington, DC 20005

Dear Mr. Crider,

We are pleased to provide the Internet Usage Report, detailing the results of our review of
Election Assistance Commission’s (EAC) controls in place and the appropriateness of EAC
employee/contractor Internet activity.

The objective of our review was to determine whether EAC has implemented effective controls
to ensure compliance with internet usage policies. Our review focused on access to sexually
explicit, gambling, gaming, and auction sites. The review included EAC and/or General Services
Administration (GSA) efforts to identify, monitor, and prevent access to sexually explicit and
gambling websites along with actions taken by management to hold employees accountable for
non-compliance with established policies. Our review identified the types of sites visited and the
time spent on the sites. The review did not include a review of e-mail or other means of
transferring prohibited material.

The evaluation was conducted in accordance with the January 2005, Quality Standards for
Inspections, issued by the President’s Council on Integrity and Efficiency. The review
encompassed Internet activity from August 24, 2008 through September 6, 2008.

We appreciate the opportunity to assist your office with these reports. Should you have any
questions please call George Fallon at (301) 931-2050.




Calverton, Maryland
November 17, 2008




11710 Beltsville Drive
Suite 300
Calverton, Maryland 20705
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                 Offices in 17 states and Washington, DC
                                           TABLE OF CONTENTS

                                                                                                                            Page

I.     BACKGROUND ......................................................................................................... 1

II.    OBJECTIVES ................................................................................................................ 2

III.   SCOPE AND METHODOLOGY ................................................................................... 2

IV.    DETAILS OF RESULTS................................................................................................ 2

V.     FINDINGS AND RECOMMENDATIONS..................................................................... 2
I.   BACKGROUND

     The EAC was established by the Help America Vote Act of 2002 (HAVA). Central to its
     role, EAC serves as a national clearinghouse and resource for information and review of
     procedures with respect to the administration of Federal elections. According to the text of
     HAVA, the law was enacted to:

          " ... establish a program to provide funds to states to replace punch card voting systems,
          to establish the Election Assistance Commission in the administration of Federal
          elections and to otherwise provide assistance with the administration of certain Federal
          election laws and programs, to establish minimum election administration standards for
          states and units of local government with responsibility for the administration of Federal
          elections, and for other purposes."

     HAVA requires the EAC to:

     •	   Generate technical guidance on the administration of federal elections.
     •	   Produce voluntary voting systems guidelines.
     •	   Research and report on matters that affect the administration of Federal elections.
     •	   Provide information and guidance with respect to laws, procedures, and technologies
          affecting the administration of Federal elections.
     •	   Administer payments to states to meet HAVA requirements.
     •	   Provide grants for election technology development and for pilot programs to test
          election technology.
     •	   Manage funds targeted to certain programs designed to encourage youth participation in
          elections.
     •	   Develop a national program for the testing, certification, and decertification of voting
          systems. Maintain the national mail voter registration form that was developed in
          accordance with the National Voter Registration Act of 1993 (NVRA), report to Congress
          every two years on the impact of the NVRA on the administration of Federal elections,
          and provide information to states on their responsibilities under that law.
     •	   Audit persons who received Federal funds authorized by HAVA from the GSA or the
          EAC.
     •	   Submit an annual report to Congress describing EAC activities for the previous fiscal
          year (FY).

     The EAC provides all system users with information technology training which includes a
     rules of behavior. At the end of the training module, users certify that they have read and
     taken the EAC Security Awareness Training module and agree to abide by the EAC Rules
     of Behavior. The EAC Rules of Behavior is based on GSA Order CIO P2100.1C – GSA
     Information Technology (IT) Security Policy and applicable to all EAC employees and
     contractors authorized to use. This GSA Order was issued on July 3, 2003 and applicable
     to authorized users of EAC. Users who do not comply with the IT General Rules of
     Behavior may incur disciplinary action and/or criminal prosecution. Both the GSA Order
     CIO P2100.1C – GSA Information Technology (IT) Security Policy and EAC Security
     Awareness training documentation provide specific examples of acceptable and
     unacceptable Internet usage.

     The EAC Office of the Inspector General (OIG) contracted with Clifton Gunderson LLP to
     conduct EAC's review of Internet Usage Activity.




                                                  1
II.   OBJECTIVES

      The objective of our review was to determine whether EAC has implemented effective
      controls to ensure compliance with internet usage policies.

III. SCOPE & METHODOLOGY

      The review included EAC and/or GSA efforts to identify, monitor, and prevent access to
      sexually explicit and gambling websites along with actions taken by management to hold
      employees accountable for non-compliance with established policies. Our review identified
      the types of sites visited and the time spent on the sites. The review did not include a
      review of e-mail or other means of transferring prohibited material.

      CG performed the following steps to determine whether EAC has implemented effective
      controls to ensure compliance with internet usage policies.
         •	 Inspected EAC policies and procedures addressing internet usage.
         •	 Inspected user training documentation which describes acceptable internet usage
              and sanctions for non-compliance.
         •	 Evaluated firewall configurations (which restrict Internet usage) for reasonableness.
         •	 Evaluated and tested Internet usage activity for frequency, and types of sites visited
         •	 Re-performed user access to questionable sites (i.e. sexually explicit, gambling,
              gaming, and auction sites) to validate suspected anomalies.
         •	 Evaluated EAC and GSA efforts to effectively identify, monitor, and prevent access
              to inappropriate Internet sites.
         •	 Documented results of testing efforts

IV. DETAILS OF RESULTS

      EAC has developed user education policies related to acceptable and prohibited Internet
      usage activity within its security awareness training material. Additionally, GSA utilizes
      Internet Web filtering software to restrict inbound Internet activity with content that is
      included within certain categories including: adult material, peer to peer file sharing,
      gambling, proxy avoidance, racism and hate, and security.

      We reviewed GSA provided internet usage logs from the WebSense software of EAC
      Internet user activity during 8/24/08 to 9/06/08 (for EAC assigned Internet Protocol (IP)
      address ranges.

      When a user attempts to access an Internet site which is classified as a blocked category,
      a warning banner appears “Access to this page is restricted at this time”. We noted that the
      WebSense software effectively filters blocked Internet content of sexually explicit,
      gambling, gaming, and auction sites for the 699,336 incoming Internet Uniform Resource
      Locator (URLs) during the period under review. These URLs represent activity between IP
      addresses assigned to EAC by GSA.

V.    FINDINGS AND RECOMMENDATIONS

      Based upon our inspection of EAC’s security awareness training content related to
      acceptable Internet usage and information technology systems, inspection of Internet
      content filtering provided by the WebSense software, and testing of actual user Internet
      activity during the period 8/24/08 to 9/06/08, we determined that Internet content of sexually
      explicit, gambling, gaming, and auction sites is being effectively controlled.


                                                 2
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1225 New York Ave. NW - Suite 1100
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
